No. 19-1039

 

IN THE
Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC, Petitioner,
v.

STATE OF NEW JERSEY, ET AL., Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

PROOF OF SERVICE

I, Ellen O. Boardman, a member of the Bar of this Court, do hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5 that I have, this 8th day of March, 2021, caused to be
served three (3) copies of the Brief of Amici Curiae United Association of Journeymen and
Apprentices of the Plumbing and Pipe Fitting Industry of the United States and Canada, AFL-CIO;
International Union of Operating Engineers; International Brotherhood of Teamsters; Laborers’
District Council of Eastern Pennsylvania; and New Jersey State Building and Construction Trades
Council in Support of Petitioner in this proceeding by causing them to be deposited with the United
States Postal Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:

Gurbir S. Grewal
Attorney General of New Jersey
Jeremy M. Feigenbaum
Office of the New Jersey Attorney General
25 Market Street
Richard J. Hughes Complex
Trenton, NJ 08625
(609) 376-2690
gurbir.grewal@njoag.gov

Jeremy.feigenbaum@njoag.gov
Counsel for Respondents State of New Jersey, et al.

Matthew Littleton

Donahue, Goldberg, Weaver & Littleton
1008 Pennsylvania Ave. SE
Washington, DC 20003
(202) 683-6895
matt@donahuegoldberg.com

Jennifer L. Danis

Edward Lloyd

Morningside Heights Legal Services
435 West 116th Street

New York, NY 10027

(201) 306-3382
Jld2228@columbia.edu

elloyd@law.columbia.edu
Counsel for Respondent New Jersey Conservation Foundation

 

Paul D. Clement

Kirkland & Ellis LLP

1301 Pennsylvania Ave, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Petitioner

I further certify that, pursuant to Supreme Court Rule 29.3, I have caused electronic copies of the
brief to be served on the parties at the email addresses listed above and that all parties required to
be served have been served.

I declare under penalty of perjury that the foregoing is tr¥e And correct.

Dated: March 8, 2021 L
Ellen O. Boardman — Counsel of Record

O° DONOGHUE & O’ DONOGHUE LLP
5301 Wisconsin Avenue, NW

Suite 800

Washington, DC 20015
eboardman@odonoghuelaw.com
(202) 362-0041

Counsel for Amici Curiae
